           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      DEMONSTRATION PROJECT
        FOR NON-ATTORNEY
         REPRESENTATIVES

     June 2006   A-12-06-16013




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:   June 5, 2006                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Demonstration Project for Non-Attorney Representatives (A-12-06-16013)

        OBJECTIVE
        Our objective was to assess the initial stages of the Social Security Administration’s
        (SSA) implementation of Section 303 of the Social Security Protection Act (SSPA) of
        2004, Nationwide Demonstration Project Providing for Extension of Fee Withholding
        Procedures to Non-Attorney Representatives.

        BACKGROUND

        In March 2004, the President signed into law the SSPA.1 This Act requires SSA to
        develop and implement a 5-year nationwide demonstration project that extends to
        certain non-attorney representatives of claimants under Titles II and XVI the option to
        have approved representative’s fees withheld and paid directly from the beneficiary’s
        past due benefits. Non-attorney representatives who wish to participate in the
        demonstration project must meet the prerequisites specified in Section 303 of the
        SSPA, and any additional prerequisites that the Commissioner may establish. The
        prerequisites for participating in the project are: (1) have a bachelor’s degree or
        equivalent; (2) pass a written examination; (3) secure professional liability insurance or
        equivalent insurance; (4) undergo a criminal background check; (5) complete continuing
        education classes in the years following eligibility; and (6) have demonstrated
        experience representing claimants before SSA. See Appendix B for details on these
        prerequisites.

        In January 2005, SSA awarded a contract to a Sacramento-based firm to assist with the
        implementation of determining the eligibility of non-attorney representatives.2 The
        contractor administered the first two examinations during 2005. The contract was
        renewed in January 2006 for an additional year.




        1
            Public Law No. 108-203.
        2
            Contract Number: SS00-05-60017.
Page 2 – The Commissioner

METHODOLOGY

We reviewed SSA’s implementation of SSPA and relevant criteria pertaining to the
qualifications and testing of potential non-attorney representatives.3 Additionally, we
reviewed public comments from the Federal Register,4 reviewed application documents
submitted as part of the pilot, observed testing locations, and interviewed
representatives from organizations representing non-attorney, disability evaluator and
claimant representative interests. We did not perform a full review of the contract costs
associated with the demonstration project. The entity audited was the Office of
Disability Adjudication and Review (ODAR).5 We conducted our audit in Falls Church,
Virginia; Baltimore, Maryland; Atlanta, Georgia; Chicago, Illinois; Dallas, Texas;
Orlando, Florida; Philadelphia, Pennsylvania; and Washington, D.C. from May 2005 to
February 2006. We conducted our audit in accordance with generally accepted
government auditing standards. See Appendix C for the full scope and methodology.

RESULTS OF REVIEW
SSA has fully implemented the initial stages of the demonstration project, though we
identified a few areas where SSA could improve the overall process. We found that the
project planning stage lacked performance indicators to capture the degree of success
of the pilot. In addition, the contractor lacked complete written procedures for verifying
(1) educational documents and (2) liability insurance coverage. Other observed issues
were being corrected during the period of our review. For example, we noticed
improvements in the testing environment for the November 2005 examination after we
commented on deficiencies at the earlier examination. Also, SSA agreed to clarify
contract terminology after we noted it was somewhat misleading when defining a non-
attorney representative. Finally, the external parties we contacted were very positive
about the demonstration project, though they saw a few areas needing improvement.

                                SSA conducted the demonstration project testing at 10 sites
DEMONSTRATION                   across the country in June 20056 and again at 9 locations in
RESULTS                         November 2005.7 A total of 242 individuals applied for the
                                June 2005 examination. Some applicants8 were denied


3
  Section 304 of SSPA requires the Government Accountability Office to study and evaluate the
appointment and payment of claimant representatives. The study is to include a survey of certain
relevant claimant representative characteristics (e.g. qualifications and experience), an assessment of the
quality and effectiveness of services provided, certain interactions relating to fee withholding, and
appropriate recommendations for administrative and legislative changes. Public Law No. 108-203 § 304.
4
  Federal Register (FR), Volume 69, Number 157 (69 FR 50431), August 16, 2004.
5
  The Office of Hearings and Appeals became ODAR on April 3, 2006.
6
  For the first examination, two Americans with Disabilities Act testing sites were located in Dallas and
Los Angeles.
7
  For the second examination, an Americans with Disabilities Act testing site was located in Sacramento,
California.
8
  A non-attorney applying to participate in the demonstration project, but who has not been designated as
eligible to receive direct fee payment.
Page 3 – The Commissioner

entrance to the first examination9 or requested a deferral, while others did not show up.
As a result, 231 of the initial applicants (95 percent) took the first examination, of whom
203 passed (88 percent)—see Figure 1. Another 116 individuals took the second
examination, of whom 83 passed (72 percent). See Appendix D for results related to
the November 2005 examination.

              Figure 1: Results Related to the June 29, 2005 Examination




Non-attorneys who pass the examination and meet other prerequisites are “eligible” to
receive direct payment of fees and their eligibility is noted on SSA’s Intranet site. SSA
employees can review the listing to check whether a non-attorney is eligible for direct
payment. SSA also maintains a separate list for sanctioned representatives.10

                           We were unable to determine the extent of the participation
PROJECT                    rate in the demonstration project by non-attorneys because
PLANNING                   SSA does not have complete data showing the number of
                           non-attorneys who represent claimants. According to SSA’s
Commissioner,11 approximately 63 percent of claimants who request a hearing before
an Administrative Law Judge (ALJ) are represented by an attorney and 11 percent by a
non-attorney. Since ODAR made approximately 518,000 decisions at the hearing level
in Fiscal Year 2005, as many as 57,000 decisions may have involved a non-attorney
representative. However, these non-attorneys can represent multiple clients in a given
year. Furthermore, non-attorneys can also be family members who perform the service
only once and would have little reason to take the examination. Hence, without more
information, we could not determine the percentage of potentially eligible non-attorneys
who participated in the demonstration project.

During the demonstration project, applicants incurred a range of costs. Individuals
participating in the demonstration project paid a non-refundable12 $1,000 application

9
  Reasons for the denials included incomplete applications, insufficient liability insurance, and applicants
lacking the required experience.
10
   Sanctioned representatives are individuals who were disqualified, suspended or not recognized to
represent a claimant before SSA (see 20 Code of Federal Regulations (C.F.R.) §§ 404.1745 and
416.1545).
11
   Commissioner’s testimony before the House Committee on Ways and Means, Subcommittee on Social
Security, and Subcommittee on Human Resources, during a Joint Hearing on Social Security’s Proposed
Improvements to the Disability Determination Process, September 27, 2005.
12
   Application fees were not refundable except in circumstances beyond the applicant’s control, such as a
documented illness of the applicant, or a transportation problem that could not have been reasonably
anticipated and planned against. Additionally, refunds or credits may be given to applicants to whom
SSA or the contractor provided erroneous information or information that is not sufficient to inform the
applicant adequately regarding the rules of the demonstration project.
Page 4 – The Commissioner

fee, obtained liability insurance,13 which on average ranged from $900 to $1,800 for
individuals,14 and incurred travel expenses to the designated examination location. We
reviewed a sample of 50 cases out of 232 applicants scheduled to sit for the June 2005
exam. The average mileage from the applicant’s address to the test site where he or
she took the exam was 318 miles (see Appendix E).

SSA’s estimated contracting cost for the first year of the demonstration project was
approximately $335,000 (see Appendix F), while the actual costs associated with the
contract were about $269,000 (see Figure 2 for a breakout of these costs). Application
service, including the online application website, was the highest cost associated with
the contract, followed by the cost of the background checks. The final total cost was
lower because the number of individuals participating in the project was fewer than
expected. While the contract anticipated up to 1,000 applicants, approximately one-
third of this number participated in the first year of the pilot. Therefore, the contract’s
first year costs15 should be covered in the first year of the demonstration project since
354 applicants paid the $1,000 application fee.

                Figure 2: Breakout of Actual Costs in First Year Contract


                                     4%                          Application Service
                               7%

                                                      29%
                        10%                                      Background Checks

                                                                 Miscellaneous

                                                                 Administration of Exam

                       24%
                                                                 Exam Preparation Service

                                                26%              Filing System



            Note: We identified five major costs associated with the first year contract cost.
            All other costs are identified under the “miscellaneous” category. This category
            includes costs for collecting fees, scoring and reporting the exam, data
            transmission, and program management.




13
   Some applicants may not have incurred liability insurance costs if they had insurance prior to
participating in the demonstration project, while others may be covered by their employers.
14
   Cost estimates provided by SSA staff. Firms’ insurance premiums may be higher.
15
   SSA also incurred additional costs, such as staff time and contract monitoring, which are not included
in the contractor costs. Additionally, some contractor costs continue after the first year of the contract
(i.e. monitoring continuing professional education and verifying liability insurance).
Page 5 – The Commissioner

QUALIFICATIONS              We reviewed a sample of 50 cases of the 232 applicants
                            scheduled to sit16 for the June 2005 exam to determine whether
                            the paperwork supported the decision that applicants met the
verification criteria in terms of: (1) criminal background investigations; (2) professional
liability insurance (or equivalent); and (3) education and work experience. We found
SSA did not have complete written procedures for reviewing documents related to the
education requirement and insurance coverage.

Written Procedures for Verification of Educational Documents

In reviewing the contractor’s educational document verification process, we found that
SSA did not provide written procedures for reviewing high school diplomas or transcripts
in accordance with the education requirement. Applicants are asked to provide
evidence of a bachelor’s degree from an accredited institution of higher education, or
equivalent qualifications derived from training and work experience. Applicants who do
not have a bachelor’s degree must submit a high school diploma or a high school
transcript. While we found appropriate documentation related to college transcripts, two
high school transcripts had been altered in ink. A total of 12 applicants (24 percent) in
our sample submitted either a high school diploma or high school transcript.

In our analysis, we determined that none of the alterations benefited the individuals
submitting the evidence. For example, in one case an applicant lowered his grade point
average, class ranking, and grade. When we discussed these alterations with
contractor staff, the staff stated they believed their verification procedures were
sufficient since applicants who had a high school diploma or transcript may come from
high schools that no longer exist or may have been destroyed by a natural disaster.
While we agree that these specific incidents did not merit further follow-up, SSA could
provide additional instructions to the contractor specifying when a situation requires
additional verification, such as alterations to documents that benefit the applicant, since
such alterations may represent a problem with the overall integrity of the document
being reviewed.

Written Procedures for Verification of Liability Insurance

We reviewed the contractor’s procedures for verifying that each applicant met the
liability insurance requirement and found that the contract was not specific as to the
extent of verification. While the contract states that the contractor should verify that
each applicant has sufficient liability insurance,17 it is not specific as to whether the
contractor should verify the existence of a physical certificate or the existence of a valid
policy by contacting the insurer. During the first application period, the contractor
verified about 80 percent of the liability certificates with the issuing insurer and did not
find any problems. Furthermore, SSA stated they believed a 10 percent verification rate

16
   This excludes the 10 applicants whose applications for the June 2005 exam were denied eligibility or
deferred until a later exam.
17
   Contract Number: SS00-05-60017; Addendum B-Performance Work Statement, page 8.
Page 6 – The Commissioner

was sufficient. While we do not disagree with a 10 percent verification rate, particularly
given the results of the contractor’s earlier results, we believe the contract should be
modified to specify the liability insurance verification steps to be performed.

Continuing Liability Insurance Coverage

In our discussions with SSA staff, we learned the Agency has a process to conduct
follow-up reviews for continuing liability insurance coverage. SSA monitors liability
insurance policies through a database system,18 which alerts SSA staff when policies
are about to expire. However, it does not inform them when policies have been
canceled, unless the participant notifies the contractor of the cancellation. SSA stated
continuous monitoring of liability insurance would increase the contractor cost and
instituting such procedures is not practical because it would consume more resources
than the benefits to be derived. However, SSA stated they will include on future
applications a clause which states that applicants will inform SSA when changes
affecting liability status occur.

                       In June 2005, we observed testing procedures at the three
TESTING                largest test sites in Atlanta, Chicago, and Dallas. In November
ENVIRONMENT            2005, we observed the second examination in Orlando and
                       Philadelphia. We found the testing environment at the sites we
                       visited during the first examination involved excessive noise,
inadequate proctoring, and unsecured examination material. We informed SSA of our
observations from the first exam prior to visiting the second test sites in November.

Excessive Noise

The testing environment for the first examination was noisy at all three test sites. For
example, at the Chicago test site a reception outside the testing area distracted test
takers. SSA is supposed to ensure that each test site would not have other meetings or
activities while the examination was administered.19 Otherwise, individuals may be
distracted and unable to fully concentrate while taking the examination. When we
reviewed sites conducting the second exam we found that one of the two sites had
excessive noise. Contractor staff said they worked with testing site hosts to ensure
noise was kept to a minimum.




18
   When a liability insurance policy is about to expire, SSA sends up to three letters to participants
informing them of this situation: (1) a warning notice—Potential Ineligibility (2) a Proposed to Suspend
Notice and (3) a Suspension Notice. Participants who are suspended will have to wait a minimum of one
month before being reinstated. Additionally, participants who are suspended do not receive direct
payment of fees while suspended.
19
   Contract Number: SS00-05-60017; Addendum B- Performance Work Statement, page 25.
Page 7 – The Commissioner

Inadequate Proctoring

During the first examination, the Atlanta test site had two proctors who were disruptive
and not attentive while the exam was being administered. In Dallas, one of the three
proctors was not alert at all times; instead the proctor was reading the newspaper. SSA
instructions to proctors state that one of their primary responsibilities is to ensure a quiet
testing environment, which as we noted earlier was not the case at this testing site.20
Moreover, the instructions lacked written procedures on the discipline of proctors by the
Chief Proctor. We did not find similar issues during the second exam.

Unsecured Examination Material

The shredding contractor in Chicago did not adequately secure open book reference
material21 used for the first examination. After the exam, the material was left
unattended at the entrance door while the contractor went to retrieve a storage bin.
SSA criteria stated the proctor is responsible for safeguarding all aspects of test
security.22 SSA staff stated individuals were allowed to make notations such as
highlighting and writing notes inside the reference material; therefore, SSA requested
the materials be shredded. Additionally, SSA used 70 percent of the exam questions
from the first exam on the second exam—enough to obtain a passing score if one could
determine the questions from the marking on the reference material. Due to the lack of
security, examination material including examination questions could have been
susceptible to theft. During the second examination, contractor personnel disposed of
the examination material without incident at the two sites we visited.

                        The definition of “non-attorney representative” in the contract is
CONTRACT
                        different and not as specific as that defined by SSA policy. The
TERMINOLOGY
                        contract defined a non-attorney representative as “a person who
                        is not a member in good standing with a State or U.S.
Commonwealth bar association.”23 SSA policy states that a non-attorney representative
is someone a claimant appoints who is not an attorney and has the following
characteristics: (1) good character and reputation; (2) capable of giving valuable help to
the claimant; (3) not disqualified or suspended from acting as a representative in
dealings before SSA; and (4) not prohibited by any law from acting as a representative.
The contract could more clearly define a non-attorney representative to be in
congruence with the overall purpose of the demonstration project. We pointed this out
to SSA staff and they agreed to clarify the definition.




20
   Social Security Administration Non-Attorney Demonstration Project Exam: Proctor’s Instructions,
page 3.
21
   Reference material used during the examinations included the C.F.R. and SSA Exam Reference
Material.
22
   Ibid, page 3.
23
   Contract Number: SS00-05-60017; Addendum B- Performance Work Statement, page 7.
Page 8 – The Commissioner

                      We reviewed public comments24 to the FR Notice dated
OUTSIDE               August 16, 2004. The comments related to the general topics for
ORGANIZATIONS the first examination, experience requirements, and the amount
                      of insurance coverage. We also met with representatives from
                      organizations that represent non-attorney, disability evaluator and
claimant representative interests. The representatives had a number of positive
comments regarding the cooperation and timeliness with which SSA and the testing
contractor responded to their questions.

The representatives also made the following comments related to implementation of the
demonstration project:

      •   Representatives from one organization noted that although SSA had a website
          related to the pilot, they had not received any literature or noticed any outreach
          efforts to non-attorneys.
      •   Representatives from two organizations stated they would have liked more
          information from SSA about the implementation of the pilot as well as the
          possibility of involvement in developing questions for the examination.
      •   Representatives from one organization noted that field offices and ALJs do not
          always understand the specifics of the pilot. For example, on one occasion an
          ALJ told a non-attorney representative that he would no longer approve her fee
          agreements because she did not take the exam and should have been part of the
          pilot. When informed of this incident by this organization, SSA investigated the
          issue and found that the ALJ misunderstood the Section 303 instructions and
          construed them to mean that a non-attorney representative must be on the list for
          a fee agreement to be approved. The ALJ was provided with an update on
          procedures to resolve the matter.

CONCLUSION AND RECOMMENDATIONS
SSA has fully implemented the initial stages of the demonstration project under Section
303 of the SSPA. We found SSA made a number of improvements while we were
conducting our review. We believe additional modifications could further improve the
demonstration project by tracking performance indicators and providing written
procedures for verifying education requirements and liability insurance.

To improve the measurement and implementation of the demonstration project, we
recommend SSA:

1. Create appropriate indicators to capture the degree of success of the pilot, such as
   the number of non-attorneys potentially eligible to apply for the examination.




24
     See Appendix G for examples of the public comments.
Page 9 – The Commissioner

2. Ensure the renewed contract includes complete procedures for verification of
   documentation related to (1) education requirements and (2) liability insurance
   requirements.

AGENCY COMMENTS
SSA agreed with our recommendations and has already initiated corrective action. The
full text of the Agency’s comments is included in Appendix H.




                                               S
                                              Patrick P. O’Carroll, Jr.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Prerequisites to Participate in the Demonstration Project

APPENDIX C – Scope and Methodology

APPENDIX D – Results Related to the November 15, 2005 Examination

APPENDIX E – Applicant Travel to Test Sites

APPENDIX F – Demonstration Project Initial Contract Price for First Year

APPENDIX G – Examples of Comments from the Federal Register Notice Dated
             August 16, 2004

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
ALJ      Administrative Law Judge
C.F.R.   Code of Federal Regulations
FR       Federal Register
ODAR     Office of Disability Adjudication and Review
SSA      Social Security Administration
SSPA     Social Security Protection Act
                                                                       Appendix B

Prerequisites to Participate in the
Demonstration Project
 (1) The representative has been awarded a bachelor’s degree from an accredited
     institution of higher education, or has been determined by the Social Security
     Administration (SSA) to have equivalent qualifications derived from training and
     work experience.

 (2) The representative has passed an examination, written and administered by
     SSA, which tests knowledge of the relevant provisions of the Social Security Act
     and the most recent developments in Agency and court decisions affecting
     Titles II and XVI of the Social Security Act.

 (3) The representative has secured professional liability or equivalent insurance
     which SSA has determined to be adequate to protect claimants in the event of
     malpractice by the representative.

 (4) The representative has undergone a criminal background check to ensure the
     representative’s fitness to practice before SSA.

 (5) The representative demonstrates ongoing completion of qualified courses of
     continuing education, including ethics and professional conduct, which are
     designed to enhance professional knowledge in matters related to entitlement to,
     or eligibility for, benefits based on disability under Titles II and XVI of the Social
     Security Act. Continuing education, and the instructors providing the education,
     shall meet standards SSA may prescribe.

 (6) The representative is required to have experience representing at least five
     claimants before SSA over a 24-month period within the 5 years from the month
     preceding the month before the application to participate is filed.
                                                                       Appendix C

Scope and Methodology
To meet our objective we:

   •   Reviewed the Social Security Administration’s (SSA) implementation of Section
       303 of the Social Security Protection Act of 2004 – and relevant criteria
       pertaining to the qualifications and testing of potential non-attorney
       representatives.

   •   Reviewed public comments solicited by SSA as part of the Federal Register
       announcement on the demonstration project.

   •   Reviewed the contract to implement the qualification and testing procedures.

   •   Interviewed SSA and contract employees to understand the implementation of
       the project, including planning, contract costs, SSA and contractor duties, and
       the application and testing procedures.

   •   Reviewed the verification responsibilities pertaining to SSA and the contractor’s
       role. In addition, selected and reviewed a sample of 50 processed applications
       to determine whether the documentation supported the decision that applicants
       met the verification criteria in terms of: (1) criminal background investigations;
       (2) professional liability insurance (or equivalent); and (3) education and work
       experience.

   •   Reviewed the questions on the June 29, 2005 test, obtained documentation
       related to examination site procedures, and observed testing at the three largest
       test sites: Atlanta, Georgia; Chicago, Illinois; and Dallas, Texas.

   •   Reviewed documentation related to the first examination, including: (1) sign-in
       sheets; (2) master roster; (3) confirmation notices/protest letters; (4) exam
       summary statistics; and (5) test comments provided by the applicants.

   •   Observed the second examination administered on November 15, 2005 at the
       Orlando, Florida and Philadelphia, Pennsylvania test sites.

   •   Interviewed members of the National Association of Disability Representatives,
       National Association of Disability Examiners, and the National Organization of
       Social Security Claimant Representatives because they have an interest in non-
       attorneys, disability evaluation, and claimant representation.
                                   Appendix D

Results Related to the November 15, 2005
Examination
                                                                  Appendix E

Applicant Travel to Test Sites
 Application              Applicant’s                 Exam       Miles Between
  Number                   Address                   Location      Locations
      1        Blackwood, New Jersey              Philadelphia          15

      2        Gulfport, Mississippi              Atlanta              400

      3        Albuquerque, New Mexico            Denver               447

      4        Orange, California                 Los Angeles           32

      5        Burlington, New Jersey             Philadelphia          23

      6        Sanford, North Carolina            Atlanta              382

      7        Uniontown, Pennsylvania            Philadelphia         302

      8        Winter Springs, Florida            Atlanta              453

      9        Waleska, Georgia                   Atlanta               48

     10        Jacksonville, Florida              Atlanta              346

     11        Prosperity, West Virginia          Atlanta              472

     12        New Bern, North Carolina           Atlanta              502

     13        Charlotte, North Carolina          Atlanta              244

     14        Raleigh, North Carolina            Chicago              862

     15        Suwanee, Georgia                   Atlanta               34

     16        Lakeland, Florida                  Atlanta              455

     17        Miami Lakes, Florida               Atlanta              659

     18        Denver, Colorado                   Denver                 0

     19        Cedar Creek, Texas                 Dallas               222

     20        Tinley Park, Illinois              Chicago               26

     21        Austin, Texas                      Dallas           0 (no show)

     22        Crete, Illinois                    Chicago               35

     23        Benton Harbor, Michigan            Chicago               98

     24        Wilmington, North Carolina         Atlanta              416



                                            E-1
 Application              Applicant’s                   Exam      Miles Between
  Number                   Address                     Location     Locations
     25        Auburn, Alabama                      Atlanta            108

     26        Newnan, Georgia                      Atlanta             38

     27        Newton, Alabama                      Atlanta            242

     28        Greenville, South Carolina           Atlanta            142

     29        Tupelo, Mississippi                  St. Louis          329

     30        Sheridan, Arkansas                   St. Louis          434

     31        Shreveport, Louisiana                Dallas             188

     32        Amarillo, Texas                      Dallas             362

     33        Enid, Oklahoma                       Dallas             303

     34        Oakland, California                  Los Angeles        373

     35        Sherman, Texas                       Dallas              64

     36        El Paso, Texas                       Dallas             636

     37        Midland, Texas                       Dallas             331

     38        El Paso, Texas                       Dallas             636

     39        Holiday, Florida                     Atlanta            460

     40        Springfield, Missouri                St. Louis          218

     41        Topeka, Kansas                       Denver             540

     42        Trego, Montana                       Seattle            523

     43        Sherman Oaks, California             Los Angeles         16

     44        Vallejo, California                  Los Angeles        386

     45        Pacifica, California                 Los Angeles        394

     46        Huntington Beach, California         Los Angeles         37

     47        Wichita, Kansas                      Atlanta            965

     48        El Paso, Texas                       Dallas             636

     49        Marks, Mississippi                   Atlanta            379

     50        Jackson, Mississippi                 Atlanta            382
Average Distance                                                       318




                                              E-2
                                                                                   Appendix F

Demonstration Project Initial Contract Price for
First Year
                                                                          Base Year Prices

                  Major Task Description                   Unit Price         Quantity             Total
 1    Online information and initial application service       $1,635.54             12 months    $19,626.48
 2    Applicant information filing system and facility            $540.41            12 months     $6,484.92
 3    Collect application fees and remit the fees to the            $27.04           12 months       $324.48
      Social Security Administration (SSA)
   4 Conduct adequate background and qualifications               $191.66     1,000 participants $191,660.00
      investigations-per participant
   5 Examination preparation services                          $1,503.29             12 months    $18,039.48
   6 Administration of the examination at the                       $68.67    1,000 participants     $68,670
      contractor’ examination centers-per participant
   7 Score all examinations, prepare a post-test                  $398.80            12 months     $4,785.60
      analysis report to SSA, and submit examination
      scores and post-test analysis report to SSA
   8 Develop and administer a method of allowing                  $379.50            12 months     $4,554.00
      test takers to register comments regarding the
      examination items during the examination period
   9 Report examination scores to test takers-per                    $1.62    1,000 participants   $1,620.00
      participant
  10 Maintain an ongoing record of and provide                    $138.75            12 months     $1,665.00
      reports to SSA regarding applicants and
      participants who met/did not meet eligibility
      requirements
  11 Other costs (Inclusive of Program Management)             $1,460.33             12 months    $17,523.96
 Total Funded Base Year Price1                                                                   $334,953.92
Note 1: Background and qualifications investigations, administration of the examination at the
contractor’s examination centers, report examination scores to test takers and the total funded base year
price were listed “Not to Exceed Price” because certain line items were based on a per participant price
they used to bill at actual participant volume rather than at a flat extended price.
                                                                   Appendix G

Examples of Comments from the Federal
Register Notice Dated August 16, 2004
 Source                                         Comments
Attorney   Opposes the demonstration project, believes non-attorneys are not qualified,
           should test knowledge of relevant circuit case law
Attorney   Cautions against an examination that is too comprehensive; favors an online,
           open book exam; favors grandfather provision for experienced non-attorneys;
           waive liability insurance if supervised by an attorney
Attorney   Require stand-by counsel
Attorney   The Social Security Administration (SSA) should guard against non-attorneys
           who circumvent the law by having an attorney in their company sign the SSA-
           1696 and receive direct payment of the fee; believes $500,000 to $1 million in
           insurance is sufficient
Non-       A minimum of 5 years as an SSA employee and 10 years representing
attorney   claimants could substitute for bachelor’s degree; attending National
           Organization of Social Security Claimant Representatives conference should
           count for continuing education requirement
Non-       Commends SSA’s commitment to the demonstration project and believes that
attorney   the requirements for special qualifications, the exam, and continuing education
           credits are good for the profession
Non-       Believes the requirements discriminate against non-attorneys; 10 years
attorney   experience in lieu of bachelor’s degree; $10,000 liability insurance is sufficient
Non-       Supports the demonstration project and believes the exam qualification should
attorney   be required for attorneys and non-attorneys
Attorney   Opposed to non-attorneys representing claimants; representative must have a
           bachelor’s degree; $1 million insurance
Attorney   Exam should include a written response to hypothetical cases; non-disability
           issue topics should seldom be on the exam; continuing education requirements
           should follow State bar guidelines; SSA should add conduct standards
Non-       Strongly supports exam for non-attorney representatives; recommends one
attorney   essay question; 4 years of experience in disability adjudication should substitute
           for bachelor’s degree; wants to have input in development of exam
Unknown    Supports the demonstration project and believes representatives should have a
           bachelor’s degree and 3 years of relevant experience; 10 years without a
           bachelor’s degree; at least 24 continuing education hours in 3 years
Unknown    Provisions will cause some SSA/Disability Determination Service employees to
           quit and become fee seeking representatives; SSA should prevent former SSA
           employees from representing a claimant in cases they previously worked on
                  Appendix H

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:       May 22, 2006                                                         Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye       /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Demonstration Project: Qualifications for
            Non-Attorney Representatives" (A-12-06-16013)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "DEMONSTRATION PROJECT: QUALIFICATIONS FOR
NON-ATTORNEY REPRESENTATIVES" (A-12-06-16013)

Thank you for the opportunity to review and comment on the draft report.

We are proud of the innovative work that went into the timely implementation of
Section 303 of the Social Security Protection Act (SSPA) of 2004. In a very short time, the
Social Security Administration (SSA) modified its existing systems to allow direct payment to
non-attorneys under Titles II and/or XVI, and attorneys involved with
Title XVI and concurrent claims. (SSPA Section 302 required SSA to activate direct payment to
attorneys in Title XVI claims when it announced its readiness to implement the demonstration
project on direct payment to non-attorneys.) A contract was awarded to assist SSA with
implementation of the prerequisites process; Federal Register notices were published defining
and explaining the project requirements, including minimum liability insurance, continuing
education and representational experience requirements; and an expert panel was created to craft
the examination instruments. SSA had little or no experience with many of the activities
required to implement this demonstration project. Our success is corroborated by the high
degree of satisfaction reported to us by organizations that represent attorneys and non-attorney
representatives.

Although we agree in principle with the recommendations in the report, we have some concerns.
On page 7, the report states that, "[d]ue to the lack of security, examination material including
examination questions could have been susceptible to theft" in the execution of the first
examination. We feel it unlikely that the examination was in any way compromised by the
Chicago shredding contractor. There are too many intervening steps to make such a scenario
likely to occur. Further, the original Statement of Work allowed test takers to keep open book
reference materials. The shredding of open book resource materials was the contractor’s
recommendation that resulted in a contract modification.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

SSA should create appropriate indicators to capture the degree of success of the pilot, such as the
number of non-attorneys potentially eligible to apply for the examination.

Response

We agree. Under SSPA Section 304, the Government Accountability Office has primary
responsibility for evaluation of the demonstration project. Nonetheless, we recognize the need
for accurate management information. Maximizing the information that is gathered and
reviewed during the pilot stage of this project will help to make future decisions on the
expansion and scope of the project more efficient. The Agency is exploring ways to get more
reliable management information.
Recommendation 2


                                               H-2
SSA should ensure the renewed contract includes complete procedures for verification of
documentation related to: 1) education requirements; and 2) liability insurance requirements.

Response

We agree. The contract should provide the contractor with more guidance as to the steps that
must be taken to verify education and liability insurance requirements. We are modifying the
contract to provide the contractor with additional guidance. These contract modifications should
be in effect by the end of September 2006.


[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




                                              H-3
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, (215) 597-4080

   Michael Maloney, Audit Manager, (703) 578-8844

Acknowledgments

In addition to those named above:

   Melissa McDaniel, Auditor-in-Charge

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-06-16013.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
